     August 25, 2005




 Oversight Review
Quality Control Review of McGladrey &
Pullen, LLP Office of Management and
Budget Circular A-133 Audit Report of
the Analytic Services Inc., Fiscal Year
Ended September 30, 2002
(Report No. D-2005-6-007)




                Department of Defense
            Office of the Inspector General
  Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at www.dodig.osd.mil/audit/reports or contact the
  Office of Audit Policy and Oversight at (703) 604-8760 or fax (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of Audit Policy
  and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808. Ideas
  and requests can also be mailed to:

                                     OAIG-APO
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 1016)
                             Arlington, VA 22202-4704
  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
ANSER                 Analytic Services Inc.
CAS                   Cost Accounting Standards
DCAA                  Defense Contract Audit Agency
FAR                   Federal Acquisition Regulation
GAS                   Government Auditing Standards
DOD OIG               Department of Defense Office of Inspector General
OMB                   Office of Management and Budget
SEFA                  Schedule of Expenditures of Federal Awards
rely on the audit report for assurance that ANSER is managing Federal awards in
compliance with laws, regulations, and award provisions.

ANSER generally complied with OMB Circular A-133 reporting requirements, except
that the Schedule of Expenditures of Federal Awards (SEFA) included, but did not
separately identify, fixed-price contracts; did not provide the complete Catalog of Federal
Domestic Assistance number or other identifying number; and did not provide the
identification number assigned by the pass-through entities (finding D).

Management Comments and DoD OIG Response. McGladrey and Pullen
management generally concurred with the audit findings and the intent of all the
recommendations and have agreed to take corrective actions. Comments from the Senior
Vice President and Chief Financial Officer, Analytic Services Inc., were responsive.
Management comments and the evaluation responses are discussed in the
recommendation section and are included in its entirety at the end of this report.

Findings
Finding A. Audit Coordination. The McGladrey & Pullen auditors did not coordinate
the single audit of ANSER for FY 2002. Specifically, the auditors did not review and
consider the work of the Defense Contract Audit Agency (DCAA). GAS states that the
auditor should determine whether other auditors have previously done or are doing audits
of the program or entity to plan and perform the audit. If other auditors have identified
areas that warrant further review, that audit work may influence an auditor’s selection of
objectives and methodology, as well as limit the extent of their own testing.

From October 2001 through September 2002, DCAA issued 12 final reports to ANSER
on compliance with cost accounting standards (CAS), recording labor charges and the
timekeeping system, provisional indirect rates, and a contract close-out report. DCAA
also issued a draft report on the ANSER billing system and identified noncompliances
with contract clauses that required withholdings on cost type and time-and-material
contracts. McGladrey & Pullen should have coordinated with DCAA and identified
these deficiencies in assessing the risk for noncompliance with laws, regulations, and
provisions of contracts and grant agreements in determining the nature and extent of its
compliance testing. In addition, the auditors would have discovered that ANSER is
subject to full CAS coverage as discussed in finding C of this report.

Finding B. Performance of the Review of Internal Control and Compliance Over
Financial Reporting. The McGladrey & Pullen auditors did not adequately plan and
perform the review of internal control and compliance over financial reporting because
the auditors did not:

   •   gain an understanding of internal control over compliance with laws, regulations,
       and contract provisions that could have a material effect on the determination of
       financial statement amounts;

   •   design and perform adequate procedures to test compliance and to follow up on
       disclosed exceptions; and

   •   determine the cause of unusual balances in the review of the accounts receivable
       balance.


                                             2
As a result, we were unable to determine whether the conclusions in the auditors’ report
on internal control and compliance over financial reporting based on the audit of financial
statements can be relied upon by Federal agencies.

        Internal Control Over Financial Reporting. The McGladrey & Pullen auditors
did not perform adequate procedures to review internal control over financial reporting.
They did not identify contract provisions that could have a material effect on financial
statement amounts; gain an understanding of internal control over financial reporting
related to compliance with laws, regulations, and contract provisions; and identify and
test key internal controls. In addition, they did not coordinate with and consider the
reviews performed by DCAA.

Auditing standards require that the auditor design the audit of the financial statements to
provide reasonable assurance that they are free of material misstatements resulting from
violations of laws, regulations, and contract provisions that have a material effect on the
determination of financial statement amounts. In addition, the standards also require the
auditor to consider the work of other auditors when planning the audit.

The majority of Federal awards to ANSER are cost-reimbursable and time-and-material
contracts, which contain contract clauses that typically could have material financial
statement implications because they address reimbursement of costs. Some of the
Federal Acquisition Regulation (FAR) contract clauses that can impact financial
statement amounts include FAR 52.216-7, “Allowable Cost and Payment;”
FAR 52.230-2, “Cost Accounting Standards;” FAR 52.232-7, “Payments under Time-
and-Material and Labor-Hour Contracts;” FAR 52.232-20, “Limitation of Cost;” FAR
52.232-22, “Limitation of Funds;” and FAR 52.232-25, “Prompt Payment.” We found
no documentation in the work papers that the auditors considered these, or any other
contract clauses that could materially affect financial statement amounts, when planning
or performing the review of internal control over financial reporting.

During our review, the current audit manager provided an audit program containing an
audit step that required the auditors to consider whether the evaluation of the internal
control structure and controls identified specific information that provided evidence about
possible noncompliance or illegal acts. The audit program referenced a supporting work
paper as evidence of work performed for this audit step. However, the current audit
manager stated that the referenced work paper could not be found. Furthermore, we did
not find any other documentation to demonstrate that the auditors gained an
understanding of relevant contract clause requirements or the internal controls designed
to ensure compliance with those requirements. The audit program also required the
auditors to review available external reports of compliance audits. The auditors
annotated that there were no external audits performed on ANSER in 2002. To the
contrary, we found that DCAA auditors performed a number of reviews on compliance
with CAS and a billing system review as discussed in finding A. These reviews were
related to compliance with contract provision requirements and should have been
considered by the McGladrey & Pullen auditors in planning the review of internal control
over financial reporting.

        Compliance With Contract Provisions. The McGladrey & Pullen auditors did
not perform adequate procedures to determine compliance with contract clauses that
could have a material effect on the financial statement. The auditors did not identify
whether duplicate billings, overpayments, and exceptions disclosed in the accounts
receivable testing were potential noncompliances. As a result, they did not evaluate these


                                             3
audit exceptions to determine whether they should have been reported as audit findings.
These conditions existed because the audit programs were primarily designed to test the
overall reasonableness of the accounts receivable assertion and not to address possible
noncompliances with contract provisions.

Based on the testing of accounts receivables, the auditors identified duplicate payments,
overbillings, and contracts that exceeded funding and or contract limitations. The
auditors documented the following audit exceptions in the work papers.

   •   Duplicate payments and overpayments of $59,024 related to three contracts in the
       billed receivables account;

   •   Estimate of $531,964 for an overpayment in the unbilled “old and closed”
       receivable account;

   •   Duplicate contract payment of $70,878 in an accrued liability account;

   •   A contract that did not have funding for subcontractor cost incurred;

   •   A contract where travel costs had exceeded the funding limit;

   •   A contract where costs were incurred prior to the receipt of funding;

   •   A contract where incurred labor had exceeded the contract hour limitations; and

   •   A time-and-material contract with costs incurred that exceeded the funding limit.

However, the work papers do not indicate that the auditors performed procedures to
determine whether ANSER had notified the Government about the duplicate payments
and overpayments as required by the Prompt Payment clause. The work papers also do
not indicate that the auditors performed procedures to determine whether ANSER had
made the required advance notification to the Government on contract limitations as
required by the Limitation of Cost and Limitation of Funds clauses. There is also no
documented evidence that the auditors evaluated these audit exceptions to determine
whether they represented reportable conditions, noncompliances, or questioned costs to
be reported as findings under GAS and OMB Circular A-133 reporting requirements.

        Review of Accounts Receivable Balance. The McGladrey & Pullen auditors did
not exercise professional judgment in the audit of accounts receivable. They did not
determine the cause of large and unusual balances in the accounts receivable account.
The accounts receivable balance of $26,635,742 represented 68 percent of the assets on
the financial statements. The supporting information provided by ANSER disclosed that
this balance included material amounts of unbilled receivables and a significant number
of credit balances. Based on our review of the work papers, we determined the
following.

   •   Approximately 25 percent or $6.5 million of the accounts receivable balance was
       for unbilled receivables. Eighteen percent or $1.2 million of the $6.5 million was
       credit balances.




                                            4
   •   A listing of unbilled "old and closed" receivables related to approximately 200
       contracts over 2 years old included contracts with credit balances of
       approximately $1.8 million.

   •   The auditor identified additional credit balances of $68,514 in the billed
       receivables account.

The McGladrey & Pullen work papers contained no documentation as to why ANSER
was not able to bill the Government for the significant costs in the unbilled receivables
account or why significant credit balances appeared in an asset account. There also was
no indication that the auditors identified these conditions as warranting further evaluation
or considered the possibility that the cause of these conditions related to internal control
deficiencies and violations of contract clauses. Furthermore, there is no documented
evidence that the auditors evaluated whether, collectively, these unusual circumstances
represented a risk of a material misstatement of the accounts receivable balance.

Finding C. Performance and Documentation of Federal Program Audit. The
McGladrey & Pullen auditors did not adequately perform and document the single audit
of the ANSER major Federal program according to OMB Circular A-133 requirements
and GAS. The auditors’ work did not support their opinion on compliance with major
program requirements and on the fair representation of the SEFA and the Summary
Schedule of Prior Audit Findings. The auditors did not adequately:

       •   plan for audit coverage for two of the applicable compliance requirements,

       •   perform tests of internal control over compliance and compliance with major
           program requirements,

       •   perform procedures to determine the completeness and appropriateness of the
           SEFA, and

       •   perform procedures to assess the reasonableness of the Summary Schedule of
           Prior Audit Findings.

        Audit Coverage. The auditors did not plan for adequate audit coverage. The
sampling methodology was inadequate to achieve the audit objectives for the review of
internal controls and compliance for the Period of Availability and Equipment and Real
Property compliance requirements.

The American Institute of Certified Public Accountants Statements on Auditing
Standards AU §350.17 states that when planning a particular sample, the auditor should
consider the specific audit objective to be achieved and determine the audit procedure, or
combination of procedures, applied to achieve that objective. The auditor should
determine that the population from which the sample is drawn is appropriate for the
specific audit objective.

The McGladrey & Pullen auditors did not properly design the sample selection to enable
them to test internal controls and compliance with the Period of Availability compliance
requirement because the sampling approach did not identify the proper universe of
contracts completed in FY 2002. The audit objective for Period of Availability is to
determine whether Federal funds were obligated within the period of availability and
obligations were liquidated within the required time period.


                                             5
The auditors used the criterion of $1 million threshold to select contracts to test for the
Period of Availability compliance requirement. None of the contracts selected by
McGladrey & Pullen using the $1 million threshold were completed during FY 2002, so
the auditors were not able to test the attributes of this compliance requirement. The
auditors should have selected contracts where work was to be completed by fiscal year
end regardless of contract value. Based on our review, we found evidence in a separate
work paper on profit margin testing of 28 contracts that the auditors listed as being
completed at year-end. Therefore, there were at least 28 contracts that should have been
included in their sampling universe.

The auditors also did not adequately plan the audit coverage for the Equipment and Real
Property compliance requirement. The work papers did not document the description of
the universe from which the sample was drawn, the basis for the sample size, and the
method of selection. The Compliance Supplement defines equipment as a tangible
nonexpendable property, including exempt property, charged directly to the award having
a useful life of more than 1 year and an acquisition cost of $5,000 or more per unit,
although lower limits may be established by a non-Federal entity. Based on our review
of the work papers, there was no indication that ANSER had established lower limits.
The auditors’ compliance testing consisted of two software items with an acquisition cost
of $741 each. We believe that the McGladrey & Pullen auditors should have used the
acquisition criterion of $5,000 to select items to test compliance with the Equipment and
Real Property compliance requirement.

        Review of Internal Controls and Compliance with Major Program
Requirements. The McGladrey & Pullen auditors identified 9 of the 14 compliance
requirements to be applicable to ANSER for the FY 2002 single audit (See Appendix B
for the applicable compliance requirements). We determined that the testing for the
Eligibility and the Procurement and Suspension and Debarment compliance requirements
to be adequate. We could not comment on the adequacy of the audit procedures for
Period of Availability related to internal controls and compliance because the auditors
could not perform any testing as a result of inadequate sampling. We also could not
determine the basis for the auditors’ conclusion for Special Tests and Provisions because
the auditors did not document which contracts were reviewed, or the audit procedures
performed to support their conclusion that ANSER did not have any contracts with
special contract terms and provisions. While the auditors obtained an adequate
understanding of internal controls, there was no plan to test internal controls over
compliance, and the testing of compliance with the requirements was inadequate for five
of the nine compliance requirements.

OMB Circular A-133 requires the auditor to perform procedures to obtain an
understanding of internal control over compliance for Federal programs sufficient to plan
the audit to support a low assessed level of control risk and perform the test of controls as
planned. Based on the test of controls, the auditor can determine the amount of
substantive testing needed to provide the auditor with sufficient evidence to support an
opinion on compliance. The auditor should be aware that small sample sizes for tests of
details with a low dollar value from a large population generally do not by themselves
provide sufficient evidence.

                Activities Allowed or Unallowed and Allowable Costs/Cost Principles.
The McGladrey & Pullen auditors did not identify and test key controls to meet the
objectives of the Activities Allowed or Unallowed and the Allowable Costs/Cost
Principles compliance requirements. The auditors did not plan and perform the test of


                                              6
controls and the compliance testing did not provide sufficient evidence to support their
opinion on compliance.

The objectives of these two compliance requirements include obtaining assurance that
direct and indirect costs charged to grants and contracts comply with applicable cost
principles for allowability and allocability. The procedures performed by the McGladrey
& Pullen auditors were primarily to verify whether the costs were supported by
appropriate documentation. Although the auditors reviewed the costs for allowability,
the auditors did not document the specific criteria used. For allocability, the auditors
documented whether the transaction was a direct or indirect cost, but there was no
documented evidence of any procedures performed to ensure that the costs were charged
in a consistent manner according to the ANSER disclosed cost accounting practices.
Based on their testing, the auditors noted no exceptions to the allowability and
allocability of costs. However, we found evidence in a separate work paper for the audit
of the financial statements on profit margin testing that the auditors had knowledge of
seven different contracts that ANSER had used to keep track of board initiative expenses.
As documented in the work paper, the auditors were aware that these expenses were
classified by ANSER as unallowable costs. The McGladrey & Pullen auditors did not
consider this information in their compliance testing for the Activities Allowed or
Unallowed and the Allowable Costs/Cost Principles compliance requirements and
concluded that the costs were allowable even though several of the tested transactions
came from these contracts.

During our review, the partner-in-charge stated that the auditors tested the transactions to
the FAR cost principles and not the cost principles under OMB Circular A-122, “Cost
Principles for Non-Profit Organizations,” (OMB Circular A-122). However, the work
papers contained no documentation of the criteria used. FAR Subpart 31.7 states that
non-profit organizations are subject to the cost principles of OMB Circular A-122.
Although some non-profit organizations are exempt from OMB Circular A-122 and
because of their size and nature of operations operate under the FAR, ANSER is not one
of them. We also found that the auditors neglected to perform audit procedures to test
ANSER compliance with CAS. The partner-in-charge provided verbal justification that
compliance with CAS was not performed because ANSER did not receive $50 million or
more in Federal awards in FY 2002 and is therefore exempt from CAS. According to the
FAR, the $50 million threshold only establishes whether an organization is subject to full
or modified CAS coverage and not as a determining factor for the applicability of CAS.
Furthermore, we were advised by both ANSER and DCAA that ANSER is fully
CAS-covered.

                Equipment and Real Property. The McGladrey & Pullen auditors did
not identify and test key internal controls and the compliance testing did not provide
sufficient evidence to support their opinion on compliance with the Equipment and Real
Property compliance requirement. The documentation for the test of controls was limited
to obtaining a current list of inventory and identifying purchases and disposals of
equipment. Aside from obtaining a list of inventory, the auditors did not perform any
audit procedures to test internal controls over inventory management or the purchase and
disposal of equipment. Since the auditors did not plan and test key internal controls,
there was no basis for the number of transactions selected to test compliance with the
requirement.

As part of their compliance testing, the auditors documented that they reviewed the
inventory count sheets, but there was no evidence of what audit objective(s) the auditors


                                             7
were trying to achieve. The auditors also judgmentally selected two items from the
property list to test compliance by tracing the items to their actual location or their
acquisition record. The items selected had an acquisition cost of $741, below that of the
$5,000 capitalization threshold as defined in the Compliance Supplement. While
ANSER can establish limits lower than $5,000, there was no indication that the auditors
performed procedures to determine whether ANSER had established lower limits. There
also was no documented evidence as to how the auditors determined that testing two
transactions was sufficient to obtain reasonable assurance that ANSER complied with the
Equipment and Real Property compliance requirement.

                Level of Effort Requirements. As documented in their compliance audit
program, the McGladrey & Pullen auditors determined that ANSER had level of effort
requirements on certain cost-plus-fixed-fee contracts. However, there was no
documented evidence of which contracts were reviewed or even a description of the level
of effort requirements that the auditors were testing for. There also was no documented
evidence of any internal control testing and the compliance testing was limited to an
analysis of material fees where the auditors analyzed calendar-to-date revenue against the
funding amount of the contract. The auditors did not provide an explanation in the work
papers how analyzing material fees would satisfy the test objectives for determining
compliance with level of effort requirements.

GAS requires that work papers contain sufficient information to enable an experienced
auditor with no previous connection to the audit to ascertain the evidence that supports an
auditor’s significant conclusions and judgments. Work papers should contain objectives,
scope, and methodology, as well as any sampling criteria used. The work papers should
also contain documentation of the work performed, including descriptions of transactions
and records examined, that would enable an experienced auditor to examine the same
transactions and records.

Based on our inquiries, the current audit manager provided us with a work paper that was
not part of the original audit files as evidence of the contracts reviewed. This work paper
was not referenced in the compliance audit program or any other work papers and we
could not ascertain its source. We were also advised by the current audit manager that
since this un-indexed work paper made no reference to level of effort, then no level of
effort requirements existed on the contracts tested. Due to the lack of internal control
testing, inadequate compliance testing, and conflicting verbal explanations, we conclude
that there is insufficient evidence to support the auditors’ opinion that ANSER complied
with level of effort requirements.

                Reporting. The McGladdrey & Pullen auditors did not perform adequate
audit procedures to support their conclusion that ANSER complied with the reporting
requirement. The auditors did not identify and test key internal controls for the reporting
requirement. For the compliance testing, the auditors documented that they reviewed the
contracts to determine which reports were required. The auditors also performed
procedures to ensure the accuracy of one financial report by tracing the information back
to the general ledger accounts. However, the work paper did not describe which general
ledger accounts the auditors reviewed to support their conclusion and we did not see any
audit procedures performed to ensure the accuracy of the monthly status reports (non-
financial reports).

During our review, the current audit manager provided the same un-indexed work paper
that was discussed under the level of effort compliance requirement as additional support


                                             8
for the testing of compliance with the reporting requirement. The auditors documented
the contracts reviewed and concluded that the financial reports agreed with the general
ledger amounts and that the reports were mailed on time. However, the work paper did
not identify which types of reports were required and reviewed and there was no evidence
of audit procedures performed to support the conclusion that the reports were submitted
on time.

        Schedule of Expenditures of Federal Awards. The McGladrey & Pullen
auditors did not perform adequate procedures to assess the completeness and
appropriateness of the SEFA. Fixed-price contracts were included on the SEFA,
representing approximately 40 percent of the total Federal awards. As a result, it created
inefficiencies in the audit because the sample selection for the compliance testing
included fixed-priced contracts not subject to audit under OMB Circular A-133.

        Summary Schedule of Prior Audit Findings. The McGladrey & Pullen auditors
did not perform adequate audit procedures to assess the reasonableness of the Summary
Schedule of Prior Audit Findings. Although the auditors documented in their work
papers that the prior year audit findings had been corrected, there was no evidence of
audit procedures performed to support their conclusion. We were advised by the current
audit manager that the auditors performed audit procedures during the planning phase of
the FY 2002 single audit to assess the reasonableness of the Summary Schedule of Prior
Audit Findings, but that the procedures were not documented. However, the current audit
manager could not verbally describe the audit procedures performed to support the claim.

Based on our review of the financial statement audit, we determined that, at a minimum,
the prior year finding related to untimely billing is a recurring condition in FY 2002 since
approximately 25 percent of the accounts receivable balance was for unbilled receivables
and should be reported as a current year finding in the Schedule of Findings and
Questioned Costs.

Finding D. OMB Circular A-133 Reporting Package. ANSER did not prepare the
SEFA according to OMB Circular A-133 requirements. The McGladrey & Pullen
auditors did not prepare the Data Collection Form according to OMB Circular A-133
requirements and the Data Collection Form instructions.

        Schedule of Expenditures of Federal Awards. ANSER did not clearly present
the SEFA according to OMB Circular A-133 §___.310(b) requirements. The SEFA
included, but did not separately identify, fixed-price contracts from the total Federal
awards. Fixed-price contracts are not required to be included in the SEFA and are not
subject to audit under OMB Circular A-133. The SEFA also did not provide the
complete Catalog of Federal Domestic Assistance number or other identifying number
when only one award was received from a Federal agency, and it did not include the
identifying number assigned by the pass-through entities for awards ANSER received as
a subrecipient. As a result, Federal awarding agencies and pass-through entities may
have difficulty using the information in the SEFA to monitor their awards.

        Data Collection Form. The McGladrey & Pullen auditors did not properly
complete Part III, Item 10, of the Data Collection Form. OMB Circular §___.320b)(2)(x)
and the Data Collection Form instructions Part III, Item 10 require the information in the
SEFA and the Data Collection Form to be presented at the same level of detail. The Data
Collection Form did not separately list the name of the pass-through entity and the
identification number assigned by the pass-through entity.


                                             9
Summary. The McGladrey & Pullen LLP audit work does not meet the requirements of
OMB Circular A-133, the related Compliance Supplement, and GAS. As a result,
Federal agencies and pass-through entities cannot rely on the audit report for assurance
that ANSER is managing Federal awards in compliance with laws, regulations, and
award provisions.

McGladrey & Pullen lacked an understanding of the requirements for performing the
single audit and we conclude that additional training related to GAS and OMB Circular
A-133 is necessary for personnel engaged in these types of audits. Based on the
deficiencies discussed in this report, we conclude that the audit was not adequately
supervised and that proper supervision is needed to ensure that the audit is conducted in
accordance with GAS and OMB Circular A-133 requirements.


Recommendations
   1. We recommend that the Chief Financial Officer, Analytic Services Inc.:

           a. Coordinate all future Office of Management and Budget Circular A-133
              audits between the independent public accounting firm and the Defense
              Contract Audit Agency to achieve a comprehensive and cost-effective
              audit.

       ANSER Comments. ANSER management concurred with the recommendation
       and stated that appropriate coordination between auditors will be performed for
       future audits.

           b. Direct McGladrey & Pullen, LLP, to redo the single audit of Analytic
              Services Inc., for FY 2002 to address the specific deficiencies related to
              the review of internal control and compliance over financial reporting and
              the major Federal program identified in this report at no additional cost to
              the Government.

       ANSER Comments. ANSER management concurred with the recommendation
       and stated that the Chair of the Audit Committee will direct McGladrey and
       Pullen, LLP, to address the specific deficiencies in this report at the earliest
       possible date.

           c. Notify the Department of Defense Office of Inspector General when
              McGladrey & Pullen, LLP, provides the revised reporting package to
              ANSER so that we can perform a follow-up quality control review before
              submission of the revised FY 2002 single audit reporting package to the
              Federal Audit Clearinghouse.

       ANSER Comments. Upon receipt of the revised reporting package from
       McGladrey and Pullen, LLP, ANSER management will promptly notify the
       Department of Defense Office of Inspector General for a follow-up quality
       control review prior to submission of the single audit reporting package to the
       Federal Audit Clearinghouse

           d. Identify as unallowable any costs associated with the audit services
              provided by McGladrey & Pullen, LLP, for the FY 2002 single audit


                                            10
          related to the review of internal control and compliance over financial
          reporting and the major Federal program until the audit is performed in
          accordance with OMB Circular A-133 and Government auditing standards.

   ANSER Comments. ANSER management will review all costs associated with the
   FY 2002 single audit services to make certain that the government does not incur any
   additional cost in conjunction with the correction of these deficiencies. Any
   additional costs incurred by ANSER for completion of an acceptable audit report will
   be recorded as an unallowable expense.

          e. Revise the Schedule of Expenditures of Federal Awards according to the
             OMB Circular A-133 requirements and provide the corrected Schedule to
             McGladrey & Pullen, LLP, for the additional audit procedures necessary
             for the FY 2002 OMB Circular A-133 audit.

   ANSER Comments. ANSER management revised the FY 2002 Schedule of
   Expenditures of Federal Awards in accordance with OMB A-133 and forwarded the
   information to McGladrey and Pullen, LLP, on June 8, 2005. In addition, similar
   revisions were made to the FY 2003 Schedule of Expenditures of Federal Awards and
   provided to McGladrey and Pullen, LLP. Finally, the Schedule of Expenditures of
   Federal Awards for FY 2004 was prepared and submitted in accordance with OMB
   A-133.

2. We recommend that the Partner-in-Charge, McGladrey & Pullen, LLP:

          a. Coordinate all future OMB Circular A-133 audits with the Defense
             Contract Audit Agency.

   McGladrey & Pullen Comments. McGladrey and Pullen management concurred
   with the finding and recommendation stating that they will contact DCAA prior to the
   start of planning their engagement to make sure that the results of the DCAA reviews
   are incorporated into the scope of their OMB Circular A-133 audit engagement.

          b. Redo the single audit of Analytic Services Inc., for FY 2002 related to the
             review of internal control and compliance over financial reporting and the
             major Federal program and revise the reporting package to reflect, at a
             minimum, the date the work is completed. The audit procedures should
             address the specific deficiencies identified in this report and be performed
             in accordance with OMB Circular A-133 and Government auditing
             standards at no additional costs. The revised reporting package should be
             provided to ANSER.

   McGladrey & Pullen Comments. McGladrey and Pullen management believed that
   their audit complied with the minimum level of documentation required by
   professional standards and that their work papers addressed the two compliance
   requirements in question. Furthermore, they stated that professional standards do not
   require them to prepare separate audit program sheets to evidence their evaluation of
   the Schedule of Expenditures of Federal Awards and the Summary Schedule of Prior
   Audit Findings. However, they acknowledged that their audit approach did not
   address all of the requirements that the DoD OIG office believe to be material and
   will modify their audit approach to more specifically address and document the
   review of internal control and compliance over the requirements cited in this report.


                                           11
McGladrey and Pullen management concurred with the recommendation and
agreed to update their audit work paper files and implement all of the actions
proposed in this report. The reporting packages will be reissued, including
subsequent dating, in accordance with applicable professional standards.

DoD OIG Response. OMB Circular A-133 §___500 requires that single audits
be conducted in accordance with Government Auditing Standards. The
documentation requirements for the audit are established in the Government
Auditing Standards which requires that work papers contain sufficient
information to enable an experienced auditor with no previous connection to the
audit to ascertain the evidence that supports an auditor’s significant conclusions
and judgments. We disagree that McGladrey and Pullen, LLP, work papers met
the documentation requirements established in the Government Auditing
Standards.

The work papers lacked adequate documentation to show proper planning and
performing to meet the Single Audit Act requirements. The deficiencies we
identified are not DoD OIG requirements but Single Audit requirements.
Updating the work papers after the fact is not an acceptable audit practice without
additional audit work. McGladrey and Pullen, LLP, needs to redo the audit to
comply with the Single Audit requirements. We will review the McGladrey and
Pullen, LLP, work papers for the additional audit procedures performed to
determine whether the single audit meets the requirements of Government
Auditing Standards and the Office of Management and Budget Circular A-133.

   c. Revise the McGladrey & Pullen, LLP, audit programs to include
      appropriate audit procedures to perform an internal control review and
      compliance testing for contract provisions in support of the Report on
      Compliance and Internal Control Over Financial Reporting for future
      audits.

McGladrey & Pullen Comments. McGladrey and Pullen management stated
that the firm already provides guidance and audit tools to facilitate this process
which will be fully implemented and used. The tools will be appropriately
tailored for the specifics of the ANSER audit engagement.

DoD OIG Response. We disagree with McGladrey and Pullen, LLP, that their
audit programs include the appropriate audit procedures to perform an internal
control review and compliance testing for contract provisions in support of the
Report on Compliance and Internal Control Over Financial Reporting. The
recommendation must be implemented to ensure appropriate audit procedures are
included.

   d. Obtain formal training for all personnel working on single audits to ensure
      future audits comply with Government auditing standards and the audit
      requirements of OMB Circular A-133.

McGladrey & Pullen Comments. McGladrey and Pullen management
concurred with the recommendation and has made arrangements for a special
training session to be held in the fall of 2005. The training will specifically focus
on the issues addressed in this report and other topics specific to the profession’s
experience with the National Single Audit.


                                     12
Appendix A. Quality Control Review Process
Scope and Methodology
We conducted a quality control review of the McGladrey & Pullen, LLP, audit of
Analytic Services Inc., for FY 2002 and the resulting reporting package that was
submitted to the Federal Audit Clearinghouse dated March 10, 2003. We performed our
review using the 1999 edition of the “Uniform Quality Control Guide for the A-133
Audits” (the Guide) and the project instruments developed by the Department of
Education Inspector General office. The Guide applies to any single audit that is subject
to the requirements of OMB Circular A-133 and is the approved President’s Council on
Integrity and Efficiency checklist used for performing the quality control reviews. Our
review was conducted from January through May 2005 and covered areas related
primarily to the audit of the ANSER research and development cluster. As the cognizant
agency for ANSER, we focused our review on the following qualitative aspects of the
single audit:

       •   qualification of auditors,

       •   independence,

       •   due professional care,

       •   planning and supervision,

       •   internal control and compliance testing,

       •   Schedule of Expenditures of Federal Awards,

       •   Schedule of Findings and Questioned Costs,

       •   Summary Schedule of Prior Audit Findings, and

       •   Data Collection Form.

In conducting our review, we reviewed the work papers prepared by McGladrey &
Pullen, LLP, as well as audit reports issued by DCAA. We discussed the audit with the
McGladrey & Pullen, LLP, partner-in-charge and current audit manager and ANSER
personnel.
Prior Quality Control Reviews
The DoD OIG has not done quality control reviews on McGladrey & Pullen, LLP.

Single Audit Requirements
The intention of the Single Audit Act, Public Law 98-502, as amended, and OMB
Circular A-133 is to improve the financial management of State and local Governments
and non-profit organizations. The Single Audit Act and OMB Circular A-133 establish
one uniform set of auditing and reporting requirements for all Federal award recipients
required to obtain a single audit. OMB Circular A-133 establishes policies that guide


                                           14
implementation of the Single Audit Act and provides an administrative foundation for
uniform audit requirements of non-Federal entities administering Federal awards.
OMB Circular A-133 requires that Federal departments and agencies rely on and use the
single audit work to the maximum extent practicable. Entities that expend $300,000
($500,000 for fiscal years ending after December 31, 2003) or more of Federal awards in
a fiscal year are subject to the Single Audit Act and the audit requirements in OMB
Circular A-133 and, therefore, must have an annual single or program-specific audit
performed under GAS. To meet the intent of the law and OMB Circular A-133
requirements, the auditee (non-Federal entity) submits to the Federal Audit
Clearinghouse a complete reporting package and a Data Collection Form on each single
audit. The submission includes the following:

       •    a Data Collection Form, certified by the auditee that the audit was completed
            in accordance with OMB Circular A-133;

       •    financial statements and related opinion;

       •    Schedule of Expenditures of Federal Awards and related opinion;

       •    report on compliance and internal control over financial reporting;

       •    report on internal control over compliance for major programs;

       •    report on compliance with requirements for major programs and related
            opinion;

       •    Schedule of Findings and Questioned Costs;

       •    Summary Schedule of Prior Audit Findings; and

       •    a corrective action plan, when appropriate.

The OMB Compliance Supplement (the Supplement) assists auditors identify compliance
requirements the Federal Government expects to be considered as part of the single audit.
For each compliance requirement, the Supplement describes the related audit objectives
that the auditor should consider in each audit conducted under OMB Circular A-133, as
well as suggested audit procedures. The Supplement also describes the objectives of
internal control and characteristics that, when present and operating effectively, may
ensure compliance with program requirements. The following 14 compliance
requirements identified in the Supplement are applicable to the research and development
cluster.

       A.   Activities Allowed or Unallowed;
       B.   Allowable Costs/Cost Principles;
       C.   Cash Management;
       D.   Davis-Bacon Act;
       E.   Eligibility;
       F.   Equipment and Real Property Management;
       G.   Matching, Level of Effort, Earmarking;
       H.   Period of Availability of Federal Funds;
       I.   Procurement and Suspension and Debarment;



                                            15
       J.   Program Income;
       K.   Real Property Acquisition and Relocations Assistance;
       L.   Reporting;
       M.   Subrecipient Monitoring; and
       N.   Special Tests and Provisions.

The Statement of Position 98-3, “Audits of States, Local Governments, and
Not-for-Profit Organizations Receiving Federal Awards,” published by the American
Institute of Certified Public Accountants, provides guidance on auditor responsibilities
for conducting audits according to the Single Audit Act and OMB Circular A-133 (the
American Institute of Certified Public Accountants converted the Statement of Position
into an audit guide in May 2003). In general, the Statement of Position 98-3 provides
auditors with an understanding of the unique planning, performance, and reporting
considerations for single audits performed under GAS. In addition, the Statement of
Position 98-3 uses summary tables and detailed discussions to provide the auditor with an
understanding of the additional general, fieldwork, and reporting requirements under
GAS, including the additional standards relating to quality control systems, continuing
professional education, work papers, audit follow-up and reporting.

The Statement of Position 98-3 emphasizes that when planning an audit to meet the
requirements of OMB Circular A-133, several factors should be considered in addition to
those ordinarily associated with an audit of financial statements in accordance with
Generally Accepted Auditing Standards and GAS. The factors include, but are not
limited to:

       •    determining that the Schedule of Expenditures of Federal Awards is presented
            fairly in relation to the financial statements;

       •    determining major programs for audit using a risk-based approach;

       •    determining compliance requirements;

       •    gaining an understanding of internal control over financial reporting and the
            Federal programs;

       •    testing internal control over major programs;

       •    determining compliance with laws, regulations, and the provisions of contract
            or grant agreements that have a direct and material effect on financial
            reporting and on each major program; and

       •    satisfying the additional requirements of the Single Audit Act and OMB
            Circular A-133 regarding work papers, audit follow-up, and reporting.




                                            16
Appendix B. Applicable Compliance
            Requirements
The McGladrey & Pullen, LLP, auditors determined the following compliance
requirements to be applicable to the single audit of Analytic Services Inc., for the fiscal
year that ended September 30, 2002.


         Compliance Requirement                          Applicable            Not Applicable

Activities Allowed or Unallowed                               X

Allowable Costs/Cost Principles                               X

Cash Management                                                                        X

Davis-Bacon Act                                                                        X

Eligibility                                                   X

Equipment and Real Property Management                        X

Matching, Level of Effort, Earmarking ∗                       X

Period of Availability of Federal Funds                       X

Procurement and Suspension and                                X
Debarment
Program Income                                                                         X

Real Property Acquisition and Relocation                                               X
Assistance
Reporting                                                     X

Subrecipient Monitoring                                                                X

Special Tests and Provisions                                  X




∗
 The McGladrey & Pullen, LLP, auditors determined that only Level of Effort applies and not Matching
and Earmarking.


                                                  17
Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement

Other Defense Organizations
Director, Defense Contract Audit Agency

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Air Force Audit Agency

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Chief, Office of Naval Research
Audit Liaison, Assistant Secretary of the Navy
  Financial Management and Comptroller
Naval Inspector General

Other Federal Agencies
Office of the Inspector General, Department of Agriculture
Office of the Inspector General, Department of Justice
Office of the Inspector General, National Aeronautics and Space Administration
Office of the Inspector General, National Science Foundation

Non-Government Organizations
Board of Trustees, Analytic Services Inc.
Audit Committee, Analytic Services Inc.
Senior Vice President and Chief Financial Officer, Analytic Services Inc.
Controller, Analytic Services Inc.
Partner-in-Charge, McGladrey & Pullen, LLP
Audit Manager, McGladrey & Pullen, LLP
Board of Directors, American Institute of Certified Public Accountants




                                           18
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census




                                        19
20
Analytic Services Inc. Comments




                      21
22
McGladrey & Pullen Comments




                   23
24
25
26
27
28
